 ANNUAL ACCOUNTING AND AUTHENTICATION OF
     DRUG CONTROL FUNDS AND RELATED
               PERFORMANCE
             FISCAL YEAR 2007

              OFFICE OF THE INSPECTOR GENERAL
                 COMMENTARY AND SUMMARY

      This report contains the fiscal year 2007 attestation review reports of
the Federal Bureau of Prisons (BOP), Drug Enforcement Administration
(DEA), Organized Crime Drug Enforcement Task Forces (OCDETF), and
Office of Justice Programs (OJP) annual accounting and authentication of
drug control funds and related performance. The report and annual detailed
accounting of funds expended by each drug control program agency is
required by 21 U.S.C. § 1704(d), as implemented by the Office of National
Drug Control Policy (ONDCP) Circular, Drug Control Accounting, dated
May 1, 2007. Under the direction of the Office of the Inspector General
(OIG), KPMG LLP (KPMG) performed the attestation reviews.

       KPMG prepared the reports in accordance with the Attestation
Standards issued by the American Institute of Certified Public Accountants
(AICPA). Each of the reports was properly addressed, titled, and contained
the elements required by the AICPA Statements on Standards for Attestation
Engagements, AT Section 100.45. An attestation review is less in scope
than an examination and, therefore, does not result in the expression of an
opinion. However, KPMG auditors reported that nothing came to their
attention that caused them to believe the submission was not presented in
all material respects in accordance with the requirements of the ONDCP
circular.

       The OIG reviewed KPMG’s reports and related documentation and
made necessary inquiries of its representatives. Our review, as
differentiated from an attestation engagement in accordance with
U.S. generally accepted government auditing standards, was not intended to
enable us to express, and we do not express, an opinion or conclusions on
the annual accounting and authentication of drug control funds and related
performance. KPMG is responsible for the attached auditors’ reports dated
January 2008, and the conclusions expressed in the reports. However, our
oversight disclosed no instances where KPMG did not comply, in all material
respects, with generally accepted government auditing standards.
